 OFFICE OF AUDIT
 REGION 3
 PHILADELPHIA, PA




                    The City of Baltimore, MD

   Homelessness Prevention and Rapid Re-Housing
                     Program




2013-PH-1002
      DRAFT- FOR DISCUSSION AND COMMENT ONLY – SUBJECT TO REVIEWNOVEMBER    9, 2012
                                                                 AND REVISION
                                                        Issue Date: November 9, 2012

                                                        Audit Report Number: 2013-PH-1002




TO:            Charles E. Halm, Director, Office of Community Planning and Development,
                 Baltimore Field Office, 3BD
               //signed//
FROM:          John P. Buck, Regional Inspector General for Audit, Philadelphia Region, 3AGA


SUBJECT:       The City of Baltimore, MD, Did Not Administer Its Homelessness Prevention and
               Rapid Re-Housing Program Grant According to Recovery Act Requirements


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG), final results of our review of the City of Baltimore, MD’s
administration of its Homelessness Prevention and Rapid Re-Housing Program grant.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
215-430-6729.
                                             November 9, 2012
                                             The City of Baltimore, MD, Did Not Administer Its
                                             Homelessness Prevention and Rapid Re-Housing
                                             Program Grant According to Recovery Act
                                             Requirements


Highlights
Audit Report 2013-PH-1002


 What We Audited and Why                      What We Found

We audited the City of Baltimore’s           The City did not properly obligate and expend grant
Homelessness Prevention and Rapid            funds, and it generally did not monitor activities for
Re-Housing Program grant because (1)         compliance with Recovery Act requirements.
its $9.5 million grant was the largest       Specifically, the City authorized reimbursements for
grant in the State of Maryland, (2) it had   program expenses based on prorated amounts rather
disbursed $6.6 million of its grant funds    than actual expenses, could not support all
as of December 2011, and (3) we have a       expenditures, used grant funds for potentially ineligible
mandate to audit American Recovery           activities, and generally did not monitor the activity of
and Reinvestment Act of 2009                 its fiduciary agent and subgrantees. In addition,
activities. The audit objective was to       HUD’s monitoring review disclosed many problems
determine whether the City properly          with the City’s administration of the grant.
obligated and expended grant funds and
monitored activities for compliance
with Recovery Act requirements.

 What We Recommend

We recommend that the U.S.
Department of Housing and Urban
Development (HUD) require the City to
provide all of the documentation it
collected supporting its actions to
satisfy the key corrective measures
prescribed in HUD’s March 16, 2012,
monitoring letter and we also
recommend that HUD review the
documentation provided by the City to
demonstrate that it used $9.5 million in
grant funds only for eligible services for
eligible participants and require the City
to reimburse HUD from non-Federal
funds for any amount that it cannot
support.
                            TABLE OF CONTENTS


Background and Objective                                                     3

Results of Audit
      Finding: The City Did Not Properly Administer Its Grant According to   4
      Recovery Act Requirements

Scope and Methodology                                                        11

Internal Controls                                                            13

Appendixes
A.    Schedule of Questioned Costs                                           15
B.    Auditee Comments and OIG’s Evaluation                                  16
C.    Distribution of the City’s Grant Funds                                 19




                                            2
                            BACKGROUND AND OBJECTIVE

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009, which includes $1.5 billion for a homelessness prevention fund. Funding for this
program, called the Homelessness Prevention and Rapid Re-Housing Program, was distributed
based on the formula used for the Emergency Shelter Grants program. The purpose of the
program is to provide financial assistance and services to prevent individuals and families from
becoming homeless and to help those who are experiencing homelessness to be quickly rehoused
and stabilized. The funds provide for a variety of assistance, including (1) short-term or
medium-term rental assistance; (2) housing relocations; (3) stabilization services, including such
activities as mediation, credit counseling, and case management; and (4) financial assistance
including security or utility deposits, utility payments, and moving cost assistance. On July 14,
2009, the U.S. Department of Housing and Urban Development (HUD) awarded the City of
Baltimore, MD, a $9.5 million grant. 1 Baltimore Homeless Services, Inc., was the arm of the
City government responsible for the grant. The director is Ms. Kate Briddell. Baltimore
Homeless Services, Inc.’s main administrative office is located at 620 Falls Way, Baltimore,
MD.

The mayor and city council of Baltimore selected the United Way of Central Maryland to serve
as fiscal manager of most of the City’s grant funds. The City entered into a grant agreement with
the United Way of Central Maryland on September 2, 2009. The agreement specified that the
United Way would be paid a fee to act as fiscal agent to disburse $8.8 million in grant funds
awarded to the City by HUD. The United Way was responsible for entering into subgrant
agreements with homeless service providers selected by the City. The City was responsible for
administering the remaining grant funds (see appendix C of this report for details on the
distribution of the grant funds).

Program grantees and subgrantees were required to expend at least 60 percent of their grant
funds within 2 years of the date on which HUD signed the grant agreement. They were required
to expend 100 percent of the grant funds within 3 years from the date on which HUD signed the
grant agreement. For the City, the deadline dates were July 14, 2011, and July 14, 2012,
respectively. As of July 14, 2011, the City had expended $5.8 million (61 percent) of its grant,
and as of July 14, 2012, it had expended $9.3 million (97 percent) of its grant. HUD allowed
grantees to continue to draw down funds for up to 90 days after the grant period ended, provided
that the funds were used to pay for eligible costs that were incurred before the 3-year expenditure
deadline. Any costs incurred after the 3-year deadline, including administrative costs, were not
eligible grant costs. As of August 30, 2012, the City had expended $9.5 million 2 (99.5 percent)
of its grant.

The objective of the audit was to determine whether the City properly obligated and expended
grant funds and monitored activities for compliance with Recovery Act requirements.


1
    The amount of the grant was $9,523,896, or $9.5 million rounded.
2
    The amount expended as of August 30, 2012, was $9,472,118, or $9.5 million rounded.

                                                         3
                                    RESULTS OF AUDIT


Finding: The City Did Not Properly Administer Its Grant According to
Recovery Act Requirements

The City did not properly obligate and expend grant funds, and it generally did not monitor
activities for compliance with Recovery Act requirements. The City authorized reimbursements
for program expenses based on prorated amounts rather than actual expenses, could not support
all expenditures, used grant funds for potentially ineligible activities, and generally did not
monitor the activity of its fiduciary agent and subgrantees. This condition occurred because the
City (1) didn’t completely understand its responsibilities under the terms of the grant agreement,
(2) wanted to get the grant funding out quickly to comply with obligation and expenditure
deadlines, and (3) did not develop and implement a plan to monitor grant activities. As a result,
it could not demonstrate that it used $9.5 million in grant funds only to pay for eligible services
for eligible participants. Therefore, these expenditures were unsupported.


    Subgrantees Were Not Paid
    Based on Actual Expenditures


                The United Way, the City’s fiduciary agent, requested quarterly drawdowns of
                funds based on a simple proration of the grant amount awarded to each
                subgrantee, including itself, divided by the length of the grant in months. The
                City directed the United Way to request funds this way. The United Way
                requested and received all of its funds using this methodology; however, section
                IV of the HUD notice of funding allocations and requirements 3 limits grant funds
                to be used only to pay for eligible benefits and costs to assist eligible participants.
                To illustrate the problem with using this methodology, in August 2010, the City’s
                director of fiscal services performed a reconciliation of funds drawn to reported
                expenses, which showed that as of the end of June 2010, the City had overdrawn
                its grant by $409,845 by using this methodology. The City improperly advanced
                these funds. HUD regulations at 24 CFR 84.22(e) and program financial
                management guidance 4 required subgrantees to be paid on a reimbursement basis
                only.




3
  HUD Notice of Allocations, Application Procedures, and Requirements for Homelessness Prevention and Rapid
Re-Housing Program Grantees under the American Recovery and Reinvestment Act of 2009, effective
March 19, 2009
4
  HUD June 2010 Homelessness Prevention and Rapid Re-Housing Program Webinar: Homelessness Prevention
and Rapid Re-Housing Program Financial Management

                                                      4
A Subgrantee Could Not
Support Its Use of Funds

            Prisoner’s Aid Association, a subgrantee, could not produce participant files or
            records to support the $270,550 in grant funds it was paid. The current executive
            director claimed that the City seized the files and alleged that the former
            executive director transferred participants from the Shelter Plus Care program into
            the Homelessness Prevention and Rapid Re-Housing Program and billed both
            HUD programs for the same participants. The United Way terminated its
            agreement with Prisoner’s Aid Association on July 1, 2011.

            In addition, although the City paid Prisoner’s Aid $270,550, it drew down
            $392,982, or $122,432 more than it paid out. Also, the expense reports that
            Prisoner’s Aid submitted to the City totaled only $157,234. As a result, the
            $392,982 in funds the City drew down was unsupported. Section IV of the HUD
            notice of funding allocations and requirements limits grant funds to be used only
            to pay for eligible benefits and costs to assist eligible participants.

A Subgrantee Could Not
Support Its Reported Expenses


            Public Justice Center, a subgrantee, requested $9,333 every month for expenses.
            This amount was determined by prorating the amount of the grant by its length in
            months. The expense reports it submitted to the City were not based on actual
            expenditures. The Center’s executive director stated that the attorneys did not
            charge time to the grant. Their hours were not charged to specific participants.
            Rather, the grant funding was used to pay the salaries of the legal staff, regardless
            of the amount of case output related to the grant. In its program financial
            management guidance, HUD informed grantees and subgrantees that salaries and
            wages need to be supported by documentation such as job descriptions and time
            sheets that reflect after-the-fact determination of actual activity of each employee,
            account for the employee’s total time in hours, and are signed by the employee
            and approved by a supervisor. In addition, for employees who work only on grant
            activities, the employee must certify at least semiannually that he or she worked
            only on this program during that period. As a result, the $336,000 in grant funds
            the City drew down for this activity was unsupported. Section IV of the HUD
            notice of funding allocations and requirements limits grant funds to be used only
            to pay for eligible benefits and costs to assist eligible participants.




                                              5
A Subgrantee’s Participant
Files Lacked Documentation


             We reviewed six participant files at the Public Justice Center and found that they
             lacked documentation to demonstrate verification of income. Apparently, income
             verification was accomplished through telephone interviews with the participants.
             The executive director stated that the Center did not obtain third-party income
             verification; it documented only what was discussed during the phone interview.
             Section 5 of HUD’s Homelessness Prevention and Rapid Re-Housing Program
             Eligibility Determination and Documentation guidance states, in order of
             preference, that the types of documentation are written third party documentation,
             oral third party, and applicant self declaration. Self certification for housing
             status for participants who are at risk of losing their housing is acceptable only in
             very limited circumstances.

             In addition, we found that the files lacked documentation to demonstrate that
             assisted households’ annual income was at or below 50 percent of the area median
             income. Section 5 of HUD’s Homelessness Prevention and Rapid Re-Housing
             Program Eligibility Determination and Documentation guidance states that
             documentation of a household’s annual income relative to the area median income
             and indicating grant eligibility must be maintained in the participant file. Section
             IV of the HUD notice of funding allocations and requirements limits grant funds
             to be used only to pay for eligible benefits and costs to assist eligible participants.

The City Used Funds for
Potentially Ineligible Activities


             The City’s agreement with the United Way stated that an independent contractor
             approved by the City would be engaged to process housing choice vouchers for a
             total fee of $60,000, payable in 36 consecutive equal monthly installments,
             commencing with the month after the first payment of funds to the United Way.
             However, housing choice vouchers are not funded with Homelessness Prevention
             and Rapid Re-Housing Program grant funds. Further, the City’s substantial
             amendment to its consolidated 2008 action plan for the grant did not address
             housing choice vouchers. The City drew down $41,667 for this activity, and this
             amount was unsupported.

             In addition, the City provided $51,964 in grant funds to Marian House, Inc., under
             a 2008 Shelter Plus Care program (a separate HUD program) grant agreement that
             it had in place with Marian House. The agreement did not address the
             Homelessness Prevention and Rapid Re-Housing Program grant requirements in
             any way. The purpose of the Shelter Plus Care program is to provide rental
             assistance in connection with supportive services. The program provides a variety
             of permanent housing choices, accompanied by a range of supportive services

                                               6
           funded through other sources. Homelessness Prevention and Rapid Re-Housing
           Program grant assistance is not intended to provide long-term support for program
           participants, nor will it be able to address all of the financial and supportive
           services needs of households that affect housing stability. Rather, assistance
           should be focused on housing stabilization, linking program participants to
           community resources and mainstream benefits, and helping them develop a plan
           for preventing future instability. Section IV of the HUD notice of funding
           allocations and requirements limits grant funds to be used only to pay for eligible
           benefits and costs to assist eligible participants. Therefore, the $51,964 in funds
           the City drew down for this activity was unsupported.

The City Did Not Monitor the
Program as Required


           The City did not monitor its fiduciary agent and subgrantees as required. It
           monitored only 5 of 15 subgrantees during the grant period. The City
           acknowledged that it did not monitor its grant as required because it claimed that
           it lacked resources to conduct the monitoring and the grant expenditure
           timeframes were too restrictive. It monitored Prisoner’s Aid in May 2011
           because it noted a discrepancy on a billing record, indicating that participants
           received benefits under both the Homelessness Prevention and Rapid Re-Housing
           Program grant and Shelter Plus Care program. Based upon that monitoring
           review, the United Way terminated its agreement with Prisoner’s Aid for cause,
           effective July 1, 2011. The City also monitored People Encouraging People, a
           subgrantee, in April 2011, because it noted that the subgrantee was rapidly
           expending its full allocation of grant funds. The City reviewed 15 participant files
           and determined that although the files were orderly, much of the required
           documentation was missing. The City monitored the other three subgrantees only
           after HUD addressed the City’s lack of monitoring during an onsite monitoring
           review in May 2011. The City’s grant agreement made the City responsible for
           ensuring that each entity that administered all or a portion of its grant funds or
           received all or a portion of its grant funds to carry out grant-funded activities fully
           complied with the grant requirements. The City stated in its substantial
           amendment to its consolidated 2008 action plan that it would be responsible for
           monitoring grant activities and reporting to HUD. The regulations at 24 CFR
           85.40(a) and section V.I of the HUD notice of funding allocations and
           requirements make grantees responsible for managing the day-to-day operations
           of grant- and subgrant-supported activities. Grantees must monitor grant- and
           subgrant-supported activities to ensure compliance with applicable Federal
           requirements and that performance goals are achieved. Grantee monitoring must
           cover each program, function, or activity.




                                             7
    HUD Monitoring Identified
    Problems With the City’s
    Administration of the Grant


                    HUD’s Headquarters Office of Special Needs Assistance monitored the City’s
                    administration of its grant from May 3 to 10, 2011. HUD issued its monitoring
                    letter to the City on March 16, 2012. 5 The monitoring review identified many
                    problems with the City’s administration of the grant and also confirmed our
                    results. HUD found

                    •    Insufficient documentation in five files reviewed at Jobs Housing and
                         Recovery (a City subgrantee) to determine whether participants were certified
                         at 90-day intervals.

                    •    Participant files at Public Justice Center (a United Way subgrantee) and Jobs
                         Housing and Recovery lacked documentation to demonstrate that households
                         met income requirements.

                    •    Participant files contained weak documentation or lacked documentation to
                         demonstrate the “but for” criteria showing that the participants did not have
                         other financial resources or support networks and were without appropriate
                         subsequent housing options.

                    •    The United Way reimbursed subgrantees a fixed amount monthly rather than
                         reimbursing them for actual expenses.

                    •    City employees were paid based on estimates, not on actual time spent
                         working on grant activities. The staff at Public Justice Center was also paid
                         based on estimates rather than actual time spent working on grant activities.

                    •    Jobs Housing and Recovery did not conduct periodic certifications
                         documenting that case managers worked only on grant-related activities.

                    •    The City did not conduct risk assessments of its subgrantees. HUD was
                         concerned about the lack of monitoring, given the substantial amount of funds
                         that had been drawn and the lack of sufficient documentation in the
                         subgrantees’ participants’ files.

                    Among its recommendations, HUD made the following key recommendations to
                    the City to

                    •    Immediately stop paying subgrantees monthly based on a predetermined,
                         calculated monthly amount;
5
    HUD issued its monitoring report after we inquired about it at the January 19, 2012, entrance conference.

                                                            8
             •   Review 100 percent of subgrantees’ expenditures to determine whether there
                 is adequate source documentation;

             •   Request revised monthly reimbursement requests from each subgrantee,
                 which must include supporting documentation for all grant funds expended
                 monthly;

             •   Reconcile the new reimbursement requests with its accounting system and
                 document the differences between the amount subgrantees received and the
                 actual amount expended;

             •   Reimburse the grant line of credit in cases in which subgrantees did not
                 expend the amount that the City advanced;

             •   Provide a detailed accounting of instances in which funds were advanced to
                 subgrantees that exceeded amounts expended;

             •   Schedule onsite monitoring visits for all subgrantees and include case file
                 reviews in the monitoring; and

             •   Develop a monitoring strategy for its grant and begin conducting monitoring
                 immediately.

             HUD made many of the same recommendations that we would make based on our
             audit results. However, the City did not immediately comply with the
             recommendations. For example, the City did not immediately stop paying
             subgrantees monthly based on a predetermined, calculated monthly amount as
             HUD directed. The City stated that it did not do so because it was contractually
             bound to provide funds to the United Way in advance.

Conclusion

             The City did not properly obligate and expend grant funds, and it generally did
             not monitor activities for compliance with Recovery Act requirements. HUD’s
             monitoring of the City’s administration of the grant disclosed many problems
             with the City’s administration of the grant and also confirmed our results. This
             occurred because the City (1) didn’t completely understand its responsibilities
             under the terms of the grant agreement, (2) wanted to get the grant funding out
             quickly to comply with obligation and expenditure deadlines, and (3) did not
             develop and implement a plan to monitor grant activities. As a result, it could not
             demonstrate that it used $9.5 million in grant funds only to pay for eligible
             services for eligible participants.




                                              9
Recommendations

          We recommend that the Director of HUD’s Baltimore Office of Community
          Planning and Development require the City to

          1A.     Provide all of the documentation it collected supporting its actions to
                  satisfy the key corrective measures prescribed in HUD’s March 16, 2012,
                  monitoring letter calling for the City to

                  •   Review 100 percent of subgrantees’ expenditures to determine whether
                      there is adequate source documentation;

                  •   Request revised monthly reimbursement requests from each
                      subgrantee, which must include supporting documentation for all
                      program funds expended monthly;

                  •   Reconcile the new reimbursement requests with its accounting system
                      and document the differences between the amount subgrantees
                      received and the actual amount expended;

                  •   Reimburse subgrantees for the actual amounts they expended if it
                      reimbursed less than the actual eligible amount; and

                  •   Reimburse its program line of credit in cases in which subgrantees did
                      not expend the amount that the City advanced.

          We also recommend that the Director of HUD’s Baltimore Office of Community
          Planning and Development

          1B.     Review the documentation provided by the City in recommendation 1A to
                  demonstrate that it used $9,472,118 in grant funds only for eligible
                  services for eligible participants and require the City to reimburse HUD
                  from non-Federal funds for any amount that it cannot support.




                                           10
                              SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

      •    Relevant background information.

      •    The Recovery Act, Office of Management and Budget implementation guidance, and
           applicable HUD regulations and guidance.

      •    The City’s monitoring reports, accounting records, single audit report for fiscal year
           2010, grant agreement, subgrant agreements, policies and procedures, and organizational
           chart.

      •    HUD’s March 16, 2012, report from its monitoring of the City’s grant and supporting
           documentation.

      •    Drawdown reports for the City’s grant from HUD’s Integrated Disbursement and
           Information System.

We also interviewed the City’s staff, subgrantee employees, and officials from HUD’s
Headquarters Office of Special Needs Assistance Programs and its Baltimore Office of
Community Planning and Development.

We conducted our onsite audit work from January through July 2012. We performed our work
at the office of Baltimore Homeless Services, Inc., located at 620 Falls Way, Baltimore, MD; the
City of Baltimore Mayor’s Office of Human Services, located at 4 South Frederick Street,
Baltimore, MD; and our offices located in Baltimore, MD, and Philadelphia, PA. The audit
covered the period September 2009 through December 2011 but was expanded when necessary
to include other periods. To achieve our audit objective, we relied in part on computer-processed
data from City’s accounting system. We used the computer-processed data to determine the amount
of grant funds the City paid to its subgrantees. Although we did not perform a detailed assessment
of the reliability of the data, we did perform a minimal level of testing and found the data to be
adequate for our purposes.

We visited and reviewed records at two subgrantees: Prisoners Aid Association of Maryland,
Inc., and Public Justice Center, Inc. Their subgrants were valued at $463,800 and $336,000,
respectively, and in total represented 8 percent 6 of the City’s $9.5 million grant. We selected
these subgrants for review because the City terminated its agreement with Prisoner’s Aid on
July 1, 2011, and the Public Justice Center was reporting the same amount of expenses every
month. We did not visit additional subgrantees because the investment of additional audit resources
was not going to change the overall conclusion or potential recommendations for corrective action
regarding the City’s administration of the grant. HUD’s review disclosed many problems with the
City’s administration of the grant and also confirmed our results. HUD had recommended that

6
    ($463,800 + $336,000 = $799,800) ($799,800 / $9,523,896 = .08)

                                                        11
the City review 100 percent of subgrantees’ expenditures to determine whether they were
adequately supported by source documentation.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                              12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •   Policies and procedures that management has implemented to reasonably
                   ensure that subgrantees are reimbursed for actual expenditures.

               •   Policies and procedures that management has implemented to reasonably
                   ensure that the program meets its objectives.

               •   Policies and procedures that management has implemented to reasonably
                   ensure that resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:



                                                 13
•   The City did not ensure that it paid its subgrantees, based on actual
    expenditures, only for eligible services for eligible participants.

•   The City generally did not monitor the activity of its fiduciary agent and
    subgrantees.




                                 14
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS
                           Recommendation
                           number                 Unsupported 1/

                                   1B               $9,472,118


1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             15
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1

Comment 1

Comment 1


Comment 2




                         16
Comment 3


Comment 3


Comment 3

Comment 3




            17
                         OIG Evaluation of Auditee Comments

Comment 1   We disagree with the City’s statements. The City acknowledges in the second
            paragraph of its written response that for the first three quarters of the grant it
            drew down funds based on payments it made to the United Way and not reported
            expenditures from sub-providers. The City asserts that it ceased that process in
            August 2010, and that no HUD monies were advanced to providers. However, we
            compared the City’s electronic funds transfers to its draws of grant funds from
            HUD and it showed that the City made three electronic transfers of $886,869 each
            to provide funds to the United Way for the quarters October to December 2010,
            January to March 2011, and April to June 2011, on September 30, 2010,
            January 6, 2011, and April 4, 2011. These transactions indicate that the City was
            advancing funds based on a prorated amount. Although the City may have been
            using funds other than its grant funds for the electronic funds transfers, this
            process had the same effect because the City made three draws of grant funds
            from HUD of $886,869 each on November 5, 2010 (36 days after the electronic
            funds transfer), January 19, 2011 (13 days after the electronic funds transfer), and
            April 7, 2011 (3 days after the electronic funds transfer). Moreover, during its
            monitoring review, HUD found that the United Way was providing a fixed
            amount of funding to the subgrantees that was calculated by dividing the
            subgrantee’s allocation of funds by the length of the grant (36 months). Thus the
            United Way provided funds to subgrantees based on a prorated amount rather than
            reimbursing them for actual expenses.

Comment 2   After the exit conference, the City provided documentation to show that there was
            an error in its records and that it had overdrawn its grant by only $409,845 as of
            June 2010, rather than the nearly $1.1 million that it initially reported to us during
            the audit. We revised the figure in the final audit report.

Comment 3   As part of the normal audit resolution process, the City needs to provide
            documentation to the Baltimore Office of Community Planning and Development
            to demonstrate that the related expenditures were eligible and supported.




                                              18
Appendix C

           DISTRIBUTION OF THE CITY’S GRANT FUNDS

                                                            Amount
                                                            drawn        Total

Funds administered by Baltimore Homeless Services:

Utility assistance                                      $ 224,014
Jobs Housing and Recovery                               $ 154,831
Administrative fee                                      $ 111,949
Marian House, Inc.                                      $ 51,964
Data collection and evaluation                          $ 48,992      _________
Subtotal                                                              $ 591,750


Funds administered by the United Way:

Baltimore City Department of Social Services-Homeless
   Emergency Environmental Services Unit                $1,594,067
Baltimore Healthcare Access, Inc.                       $1,050,000
St. Vincent de Paul of Baltimore, Inc.                  $1,045,303
Associated Catholic Charities                           $1,042,000
Health Care for the Homeless, Inc.                      $ 884,106
People Encouraging People                               $ 689,922
AIDS Interfaith Residential Services, Inc.              $ 600,000
Legal Aid Bureau                                        $ 549,593
Prisoners Aid Association of Maryland, Inc.             $ 392,982
Public Justice Center, Inc.                             $ 336,000
Homeless Persons Representation Project                 $ 285,000
Fusion Partnerships                                     $ 273,644
Administrative fee                                      $    96,084
Subcontractor fee                                       $    41,667   _________
Subtotal                                                              $8,880,368
Total                                                                 $9,472,118




                                              19
